<html>
<title> - PLANNING FOR POST-CATASTROPHE HOUSING NEEDS: HAS FEMA DEVELOPED AN EFFECTIVE STRATEGY FOR HOUSING LARGE NUMBERS OF CITIZENS DISPLACED BY DISASTER?</title>
<body><pre>[Senate Hearing 110-749]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-749
 
  PLANNING FOR POST-CATASTROPHE HOUSING NEEDS: HAS FEMA DEVELOPED AN 
 EFFECTIVE STRATEGY FOR HOUSING LARGE NUMBERS OF CITIZENS DISPLACED BY 
                               DISASTER? 

=======================================================================

                                HEARING

                               before the

                AD HOC SUBCOMMITTEE ON DISASTER RECOVERY

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 30, 2008

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

44-585 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




























        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


                AD HOC SUBCOMMITTEE ON DISASTER RECOVERY

                 MARY L. LANDRIEU, Louisiana, Chairman
THOMAS R. CARPER, Delaware           TED STEVENS, Alaska
MARK L. PRYOR, Arkansas              PETE V. DOMENICI, New Mexico
                     Donny Williams, Staff Director
                 Aprille Raabe, Minority Staff Director
                       Kelsey Stroud, Chief Clerk





















                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Landrieu.............................................     1

                               WITNESSES
                        Wednesday, July 30, 2008

Admiral Harvey E. Johnson, Jr., Deputy Administrator, U.S. 
  Federal Emergency Management Agency, U.S. Department of 
  Homeland Security..............................................     6
David Garratt, Acting Director of Recovery Efforts, Federal 
  Emergency Management Agency, U.S. Department of Homeland 
  Security.......................................................    18
Jan C. Opper, Associate Deputy Assistant Secretary for Disaster 
  Policy and Management, U.S. Department of Housing and Urban 
  Development....................................................    18

                     Alphabetical List of Witnesses

Garratt, David:
    Testimony....................................................    18
    Joint prepared statement with Admiral Johnson................    27
Johnson, Admiral Harvey E., Jr.:
    Testimony....................................................     6
    Joint prepared statement with Mr. Garrett....................    27
Opper, Jan C.:
    Testimony....................................................    18
    Prepared statement...........................................    37

                                APPENDIX

Chart entitled ``FEMA National Disaster Housing Strategy,'' 
  submitted by Senator Landrieu..................................    40
Prepared statements submitted for the Record from:
    Kirk H. Tate, CPM, Chief Executive Officer, Orion Real Estate 
      Services, Houston, Texas...................................    41
    National Association of Realtors.............................    47
Questions and responses submitted for the Record from:
    Admiral Johnson and Mr. Garrett..............................    51
    Mr. Opper....................................................    73


                     PLANNING FOR POST-CATASTROPHE
                   HOUSING NEEDS: HAS FEMA DEVELOPED
                   AN EFFECTIVE STRATEGY FOR HOUSING
                  LARGE NUMBERS OF CITIZENS DISPLACED
                              BY DISASTER?

                              ----------                              


                        WEDNESDAY, JULY 30, 2008

                                     U.S. Senate,  
              Ad Hoc Subcommittee on Disaster Recovery,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 12:06 p.m., in 
room SD-562, Dirksen Senate Office Building, Hon. Mary 
Landrieu, Chairman of the Subcommittee, presiding.
    Present: Senator Landrieu.

             OPENING STATEMENT OF SENATOR LANDRIEU

    Senator Landrieu. Good afternoon. I would like to call the 
Subcommittee on Disaster Recovery hearing on Planning for Post-
Catastrophe Housing Needs to order. This is the first 
Subcommittee hearing of our housing investigation of FEMA's 
handling of the post-Katrina and post-Rita Hurricanes 
aftermath.
    I would like to begin with an opening statement, and then I 
will introduce our panelists. We have two panels today. I will 
introduce them in just a moment, but I would like to open with 
a statement expressing where we are and what the importance of 
this meeting is today.
    Today, as I said, is the first hearing of the Subcommittee 
on Disaster Recovery investigation of national disaster housing 
programs. On February 13, 2008, the Senate provided this 
Subcommittee a supplemental budget to fund this bipartisan 
investigation. The request and subsequent approval for the 
investigations were brought about by a series of problems that 
emerged in the wake of Hurricanes Katrina and Rita.
    FEMA's housing efforts in the aftermath of the storm failed 
to meet, in my view, the desperate needs of the survivors of 
the storm, making it clear to the Nation that this agency had 
no real plan for how to house tens of thousands, hundreds of 
thousands of people in the aftermath of a catastrophic 
disaster.
    The rush decision to use travel trailers as the preliminary 
means of housing is of great concern to this Subcommittee. The 
discovery of alarmingly high formaldehyde levels in these 
trailers subsequently underscored FEMA's inability to provide 
safe choices to house survivors of these catastrophes.
    Hurricanes Katrina and Rita, as I have said many times and 
as the record will show, was the most destructive natural 
disaster in our Nation's history. Over 1,500 people lost their 
lives. Ninety thousand square miles of land was impacted, and 
entire coastal towns and large portions of substantial cities 
in Mississippi and Louisiana were destroyed. The storms sent 
over a million fleeing from the Gulf Coast area.
    The housing crisis created by the storms was unprecedented; 
it destroyed over 300,000 homes, and resutled in billions of 
dollars in damage to public infrastructure. Evacuees--as we 
remember only 3 years from the end of this next month, August 
29, 2005--were forced from their homes and had to take shelter 
wherever it was available, whether it was with family or 
friends or whether it was in a football stadium or whether it 
was on a highway overpass. Some sat in these situations for 
days before buses to Houston, Little Rock, Shreveport, Jackson, 
Baton Rouge, or other places became available.
    Many were flown to places or bused to places where they had 
no family, no friends, no jobs, no connections to the lives 
that they were living only a few days before.
    This catastrophe presented a clear challenge to the people 
of the United States, to our nonprofit system, and to all 
levels of government. With the impacted States completely 
overwhelmed and local governments overwhelmed, the Federal 
Government was called upon to fulfill its Stafford Act 
obligations to respond, and it was clear that this would take 
time and new solutions to rebuild the damaged housing stock. 
Creativity and bold action would need to be the order of the 
day. Unfortunately, in my view--and I think our Subcommittee 
will find this out--it was not to be found.
    In this environment, FEMA's decision was to use travel 
trailers. They began ordering manufactured housing almost 
immediately, eventually resulting in 140,000 travel trailers 
and mobile homes in the Gulf Coast area. Group sites at great 
expense were set up all over the region. Many homeowners lived 
in trailers in their driveways while they made repairs, and 
some of that is still going on.
    As the recovery effort continued, the situation on the 
ground made it clear that FEMA was not ready for this housing 
challenge. It was evident that the agency did not have a plan 
in place for a housing catastrophe of this magnitude. 
Consistent delays, poor coordination, problems with 
maintenance, and a seeming lack of leadership sent a message to 
the Nation that it was not working, and we must be better 
prepared for the next catastrophe.
    So Congress acted. Congress drafted legislation. Before I 
was even a Member of this Subcommittee, Congress drafted 
legislation aimed at getting this situation under control and 
giving some direction to this agency that, in the view not just 
of Congress, not just of the Governors, but in the view of many 
in the Nation, had failed. And on October 4, 2006, the 
President signed into law the resulting bill, the Post-Katrina 
Emergency Management Reform Act (PKEMRA).
    The overarching purpose of this bill was to ensure that a 
Federal response, like the one we had in Hurricane Katrina, 
would never happen again. A direct result of the Katrina-
created housing catastrophe was the requirement that FEMA 
develop and implement a disaster housing plan within 270 days 
of the bill's passage--not 15 days, not 60 days, not even 90 
days--270 days FEMA had to get this plan together.
    As you can see on this chart,\1\ the FEMA National Disaster 
Housing Strategy, which is also included in this packet, the 
due date for this strategy was July 1, 2007. As I have said, 
FEMA was required by law to submit the strategy to Congress. 
FEMA did not submit this strategy until 10 days ago.
---------------------------------------------------------------------------
    \1\ The chart referred to appears in the Appendix on page 40.
---------------------------------------------------------------------------
    As you can see from the charts we have put up here, the 
Subcommittee has direct oversight jurisdiction of this 
strategy, and as part of our investigation we are going to find 
out why this was late; and as for the report that was 
submitted, does it actually meet the requirements of the law?
    I believe, based on my initial review, the strategy fails 
to do what is required by the law. The fact that FEMA had 20 
months to come up with an innovative and effective plan and 
still missed the mark is absolutely unacceptable. I fear that 
we are no better prepared today than we were 3 years ago when 
Hurricanes Katrina and Rita struck unmercifully on the Gulf 
Coast.
    I would like to share briefly some of the Subcommittee's 
analysis.
    First, the strategy fails to meet the legal requirements of 
PKEMRA. Of nine required improvements to FEMA's Disaster 
Housing Strategy, FEMA passed off six of them to a yet-to-be-
formed entity called the ``Disaster Housing Task Force.'' In 
fact, FEMA passed over one dozen of the most critical planning 
duties to this non-existent task force. FEMA was instructed to 
make and implement a plan, not hand this job off to an entity 
that has yet to be formed. And let me repeat: FEMA was 
instructed by a law passed by Congress and signed by the 
President to make and implement a plan, not hand the job off to 
an entity that is not yet formed.
    It has been almost 3 years since Hurricane Katrina, and 
that raises several questions. Why did it take FEMA 20 months 
to come up with this? What new and creative approaches does 
this strategy offer? FEMA openly admits the strategy is not a 
plan, so what is the difference between a strategy and a plan? 
And how could a strategy operate without one?
    Last, are we more prepared today than we were 3 years ago 
in the event of a catastrophic disaster, whether it is caused 
by a hurricane or an earthquake? We just had a reminder of that 
in Los Angeles yesterday. And we could only think of other 
situations that could occur where hundreds of thousands or 
millions of people are without housing. And we do not have a 
plan. I don't know if we have a strategy. And we don't even yet 
have a task force, it seems, according to what FEMA has 
presented.
    As everyone knows, the use of trailers as interim housing 
in the aftermath of Hurricane Katrina was pretty much a 
failure. Trailer residents were exposed to formaldehyde that 
threatens their health. Not reported and undocumented because 
we have not been able to receive this information yet, despite 
our requests, is the number of fires and explosions that 
occurred in these trailers, which will be the subject of 
another hearing for me at some time in the future.
    I know FEMA includes trailers in the strategy as a last 
resort to be used only when requested by States during 
catastrophes and for short periods, not just the past 6 months. 
My problem with this strategy is since it outlines no other 
options, we are going to get to the last resort pretty quickly. 
And I have serious problems with this part of the plan. The 
strategy's lack of detailed plans, programs, roles, and 
responsibilities leaves the American people at risk for future 
catastrophes.
    For those of you that are tired of hearing about Hurricane 
Katrina and Rita, I can most certainly understand why. I am 
actually tired of saying those names myself. And I am even more 
tired of going home to Louisiana and still seeing people that 
have been displaced, victims living under overpasses, having to 
fight for 18 months for 3,000--only 3,000--housing vouchers 
that took us 2 years to fight this Administration to get, 
because we cannot afford to send even the most vulnerable 
people a voucher to live in a decent place. So their choice is 
either live in a trailer with formaldehyde or under an 
overpass. I think America can do better.
    What is worse is this problem which was discovered during 
Hurricanes Katrina and Rita. For the rest of the country, it 
could happen to you. Again, an earthquake in Los Angeles 
yesterday, we are blessed that the damage was relatively 
minimal. What is going to happen if we have a major earthquake 
in this country and hundreds of thousands of people are 
displaced from their homes? We do not even have a task force 
organized to come up with a plan, let alone have come up with 
one.
    The lack of a plan should not imply a lack of effort on 
Congress' part, and let me say on behalf of my colleagues, both 
Democrats and Republicans, I don't know what more Congress 
could do. I don't know what more Congress can do. They have had 
hearing after hearing, documents submitted, laws drafted, laws 
passed, deadlines set. This is not a blame of Members of 
Congress, Republican or Democrat. This problem falls squarely, 
Admiral Johnson, at your feet and the leadership of FEMA and 
the Administration.
    The strategy takes pains to place a higher burden for 
preparation on individuals. That is one of the things in the 
strategy that we received, as if the individuals themselves did 
not do a good job or swim fast enough out of their homes. I 
think we all agree that people can be more prepared, people 
should be more prepared, and, in fact, people should have an 
evacuation strategy. But, again, I will remind you that in this 
disaster, just like in the next one that will occur, people 
will say after it happens, ``This has never happened here 
before. We have never had this kind of water before. We have 
never had an earthquake before.''
    It is your job to recognize that people will not normally 
know that they are in a danger zone, and when disaster strikes, 
the government must be able to act swiftly and boldly. And, 
yes, we do have to encourage individual effort. I was happy to 
see that, but to rely on this is just, I think, wholly 
inappropriate.
    It also overlooks the fact that it is difficult to contact 
FEMA when your home is a pile of rubble and you do not have 
access to telephones or Internet, which was another interesting 
aspect of our Federal Government's requirement. For people who 
had lost everything in their home, before they could get a loan 
through the Small Business Administration, they had to provide, 
as I recall, five clean copies--not in blue ink, but in black, 
as the requirement of the Federal Government--of their last tax 
returns before they could apply. When the Small Business 
Administration sits somewhat in proximity to the IRS, it would 
seem to be impossible for the Federal Government to work with 
the agency across the street, and yet expected disaster victims 
to provide five clean copies of their last 5 years' tax returns 
before they could even request help. So if you are expecting 
someone to pick up the phone and call you, your plan should 
realize they may not have phones, and we need to think about 
that--or the Internet.
    Our investigation has uncovered stories of families 
sleeping in shifts so they could pass the phone around as they 
waited for a FEMA representative to pick it up. And I want to 
repeat that. We know of families that slept in shifts so that 
when the FEMA representative answered the phone, someone would 
be awake to take the call. And my question in this Subcommittee 
is: What have we done to correct that?
    The strategy reflects progress in some areas. The 
appointment of State and local emergency managers to coordinate 
the emergency shelters is a good recommendation, but, on the 
other hand--since I am on Appropriations, I will put my hat on 
here. On the other hand, while you all appointed more people at 
the State level to do their job and basically said this is 
about individuals and the State, this Administration cut 
funding for training. So I just want that to be part of the 
record.
    I was pleased to see that FEMA now requires formaldehyde 
testing, certification for all manufactured housing, should the 
States request it. However, I did get a call from the Governor 
of Iowa, who after the storms last week asked me if he had to 
take trailers with mold, or was he allowed to return them. I 
told him to return them with dispatch and suggest that FEMA 
send him trailers without mold. I hope that was done.
    I expected a detailed plan or at the very least one that 
complied with the law because FEMA told Congress time and time 
again it would be something we could be proud of and, more 
importantly, something that would help prepare disaster 
mechanisms for a catastrophe in the future. Neither of these 
seem to be true.
    In addition to the strategy, we will consider whether the 
Hurricane Pam simulation in 2004 led to the development of a 
plan or not. The exercise did in 2004, as you all remember, 
right before the storms, predict how a massive hurricane would 
impact New Orleans. The outcome yielded very important 
predictions, but, sadly, none of that information seems to have 
gotten into the hands in a useful way of this agency to do 
anything before Hurricanes Katrina and Rita, which happened 
later in the summer.
    So let me close by saying this: I speak confidently for 
myself and my colleagues when I say that we want FEMA to be 
successful. We are doing everything we know how to do to help 
you be successful. We have passed laws. We have increased your 
funding. We have given you flexibility. We have provided 
everything that you have asked of us to my knowledge. And yet 
today, 3 years later, we sit with what you have submitted as a 
housing plan which basically says our plan is to establish a 
plan by creating a task force that does not yet exist. Admiral 
Johnson, this is unacceptable.
    So, with this opening statement, we are going to start this 
hearing, and we are going to continue to have hearings until we 
can find out, using all appropriate investigative techniques, 
why we are in this situation because, obviously, we must figure 
that out so we can move forward.
    I am going to ask Admiral Johnson to begin the first panel. 
I do not think he need any introduction, but for those that 
might not recognize his name, he is now the Deputy 
Administrator officer at FEMA. He was commander of the Coast 
Guard Pacific Area before joining FEMA in 2006. He served as 
Director of Homeland Security Task Force Southwest, and he has 
extensive background and capabilities, obviously, in these 
areas.
    So I thank you for being with us today, Admiral. We look 
forward to your testimony. And then we will have a round of 
questions.
    Unfortunately, I am going to have to close this hearing at 
1:40 because of a previous commitment. We may be joined by 
other colleagues. But if you could--I think we have limited 
your opening statement to 5 minutes, and then we will have a 
round of questioning.
    Please proceed.

    TESTIMONY OF ADMIRAL HARVEY E. JOHNSON, JR.,\1\ DEPUTY 
 ADMINISTRATOR, U.S. FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Admiral Johnson. Chairman Landrieu, Senator Stevens when he 
arrives, distinguished members of the Subcommittee, thank you 
for this opportunity to appear before you today to discuss the 
challenges of disaster housing, and specifically FEMA's recent 
release of the draft National Disaster Housing Strategy. This 
draft inviting us to testify on the subject of disaster 
housing. This draft strategy was released last Wednesday to 
initiate a 60-day public comment period and as required by the 
Post-Katrina Emergency Management Reform Act, it has been 
specifically provided to the FEMA National Advisory Council, to 
the National Council on Disabilities, as well as the pertinent 
Federal departments and agencies for their review and comment. 
I expect to engage with each of these groups and many others 
over the next 60 days, actively seeking comment and suggestions 
such that later in the fall we can release the final strategy 
and embark on a deliberate course to achieve the visions and 
goals outlined in the strategy.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Admiral Johnson and Mr. Garrett 
appears in the Appendix on page 27.
---------------------------------------------------------------------------
    The draft National Disaster Housing Strategy is likely one 
of the most significant documents prepared by FEMA and released 
under the umbrella of the National Response Framework. The 
strategy describes how the Nation currently provides housing to 
those affected by disaster, and, more importantly, it charts a 
new direction for where our disaster housing efforts must focus 
if we, as a Nation, are to better understand and meet the 
emergency disaster housing needs of disaster victims and 
communities.
    This strategy captures lessons learned from Hurricane 
Katrina and subsequent disasters. It embraces the larger issues 
of disaster victims beyond simply providing a structure and 
seeks innovative and creative housing options. It also elevates 
issues of safety and security and access to those within 
disabilities, emphasizes again and again the value of planning, 
and differentiates the catastrophic event above all other 
disasters.
    For the first time in a single document, the strategy 
addresses all forms of housing and suggests that these issues 
merit full-time attention before and between disasters, not 
just traditionally at just-in-time, short-term, sporadic 
interest just after a specific disaster.
    There are three attributes that distinguish the strategy 
and the role that it will have to shape the disaster housing 
efforts across the Nation.
    First, the strategy is, in fact, a strategy. It is an 
essential precursor to a plan, but intentionally not a plan in 
and of itself. As a strategy, it captures the challenges of 
disaster housing, clarifies roles and responsibilities, 
establishes key principles, and sets courses for new directions 
and pragmatic solutions in sheltering, interim housing, and 
permanent housing. As a strategy, it describes the national 
vision and strategic goals--neither of which, by the way, 
existed before--key building blocks for plans, policies, and 
procedures. Its purpose is to frame the issue, engage in 
collaborative discussion, and ensure that every subsequent 
action taken contributes to strengthening the disaster housing 
capabilities at every level of jurisdiction.
    Differentiating a strategy from a plan is not an issue of 
semantics. It is an issue of leadership to effectively meet our 
shared objectives. A national strategy is the first step in 
developing integrated disaster housing plans across the Nation 
that all support a common vision and goals. The strategy will 
provide a common basis for synchronized disaster housing plans 
at the local, State, and Federal Government, as well as plans 
of our key partners, including nongovernmental organizations 
and private sector.
    Second, this strategy is imbued with the imperative that 
disaster housing solutions be defined and achieved 
collaboratively. Addressing challenges of disaster housing 
should not be driven from the Federal level; rather, we must 
provide leadership, set the pace, and actively engage and gain 
commitment from individuals and communities from States, 
Federal partners, NGOs, and the private sector, and from other 
elements in order to achieve the strategy.
    Third, the strategy embraces the need for immediate action 
by framing FEMA's establishment of a Standing National Disaster 
Task Force charged specifically to aggressively implement the 
strategy. Far from passing the buck, reassigning duties, 
handing off, or outsourcing the problem, FEMA will own the 
strategy. FEMA will retain responsibility, and we will lead the 
charge and reach to the representatives of State and local 
governments, people with disabilities, NGOs, the private 
sector, individuals, and other constituents to implement the 
strategy and achieve its purpose.
    While we may not have described the task force as well as 
we could have, one point should be made very clear. This is no 
other entity in government or elsewhere that offers a full-time 
daily focus and commitment to addressing what you, Madam 
Chairman, and most disaster victims would describe as one of 
the most important elements of disaster response and recovery, 
that being disaster housing.
    While this strategy has only been in the public view for 
just one more day than week, it has drawn a number of comments, 
some favorable and some not. On the downside, I acknowledge 
that the document is late. It was due in July last year. I 
apologize for FEMA that we did not meet this date, but the time 
has been well spent as we continue to learn, understand, and 
appreciate the many elements of disaster housing. We could not 
have produced this document 1 year ago, and I trust that the 
value of having a strategy will overshadow the late date of its 
delivery.
    Another criticism is that the strategy is not responsive to 
the requirements set forth in PKEMRA. While a fair observation 
of the draft strategy, the elements specified in PKEMRA will be 
contained in the final version of the strategy, yet the point 
must be made that, absent this document, the collection of the 
specifications in PKEMRA would not have made a strategy as 
collectively they do not create a vision or an integrated set 
of goals. Yet with this strategy as a foundation and with the 
Standing National Disaster Task Force as the engine, the 
specifications enumerated in PKEMRA will find their value.
    On the positive side of the ledger, there are those who 
recognize the value of a strategy, see that we for the first 
time in a single document have described all the elements of 
disaster housing in terms of challenges and new directions. 
There are those who recognize that existing housing plans are 
not integrated, but that by bringing these efforts together, we 
will be able to make more progress and address the diverse 
needs of communities and States across the Nation.
    There are those who appreciate recognition of the broader 
human need as an element of disaster housing. There are those 
who are standing in the aisles even now, ready to support the 
implementation efforts of the National Disaster Housing Task 
Force.
    Madam Chairman, as you and your staff took pen to paper and 
had a large hand in drafting the requirements for the strategy 
within PKEMRA, I trust that you as well will see that this 
strategy meets your purpose to establish valuable and pragmatic 
public policy that will elevated preparedness and provide 
better assistance to disaster victims. While understandably 
impatient that this could not have been accomplished long ago, 
I trust that the point now is to draw on the State and local 
partners, Federal partners and the NGOs, the private sector and 
all those who work in disaster housing to roll up their sleeves 
and do the work necessary to develop plans and, more 
importantly, the capabilities to implement effective disaster 
housing plans. These plans need to be effective for all 
hazards, for all disasters, from small to catastrophic, and to 
meet the full and broader needs of disaster victims. FEMA 
recognizes those challenges and is ready to provide the 
leadership to accomplish all of those objectives.
    Thank you for this opportunity, and I am prepared to 
respond to your questions.
    [The prepared statement of Admiral Johnson and Mr. Garratt 
follows:]
    Senator Landrieu. My first question is that there are seven 
provisions, as you are aware, that are the core of the law that 
Congress passed requiring this strategy. And I have in my hand 
the requirements of the law, and Congress said in this law that 
a strategy should be developed--not may be developed, but a 
strategy shall be developed.
    The seven missing annexes, though, that were required by 
Congress, the first is Annex Number 1, Housing Programs; Number 
2, and it is blank, as you can see; Number 2, Methods of 
Housing Victims, that is blank; Number 3, Programs for Low-
Income Housing Populations, that is blank; group site housing.
    These seven provisions were the core of the law that 
Congress asked you all to provide. Why are these seven mandates 
required still blank? And when do you think the law requires 
you to fill them in?
    Admiral Johnson. Madam Chairman, in the strategy, in 
developing the document in response to Katrina, which did ask 
for a strategy, these seven annexes are under development. We 
have staffs working to complete those now, and we anticipate 
that when we publish the final strategy in the fall, they will 
have each of those components fairly represented. And as we are 
writing these annexes, we are reaching out to involve all the 
relevant agencies, State and locals and others who have equity 
inside each of those annexes to be part of that process.
    In my view, those elements in and of themselves would not 
have met your purpose. They would have been without any 
foundation. They are almost independent efforts that 
collectively will help to respond to what the Nation needs in 
terms of disaster housing. They will all find greater value 
when the foundation which is there, which is, I believe, the 
strategy we provided in draft. And so as a complete package, I 
believe we will meet your objectives. We will meet every letter 
of the law.
    Senator Landrieu. But why, in your view, since I am not 
privy--and no one is--to even the drafting of these annexes 
that are blank, why, in your view, would it have been 
inadequate, do you think, for this Subcommittee? What in the 
draft would lead you to that conclusion?
    Admiral Johnson. As you commented in our separate meetings 
and in multiple hearings, you pointed to an array of issues 
that we must confront as a Nation. And in confronting those 
issues, we can have a bunch of independent discussions which 
each of these elements of the annexes could very well generate 
independent discussions of those important issues. But nothing 
brings them together, nothing draws focus to where they really 
are. And the language of the law asked us to describe, and so 
in at least four or five of those seven is to describe. 
Describing will not tell us where we need to go as a Nation to 
improve our capabilities. So we believe that the strategies we 
provide--it does bring into a single document the elements of 
shelter, interim housing, and permanent housing. It does 
clearly realign roles and responsibilities, which I think--I 
hope you would acknowledge were misaligned in Katrina. It sets 
the foundation of perspective and context to take each of now 
these seven annexes and to bring them together into an 
effective plan that approaches disaster housing.
    So I believe this is really the glue that pulls them all 
together and ties them and gives them a sense of direction and 
purpose.
    Senator Landrieu. But I think what is puzzling, if I might, 
Admiral Johnson, is the law says the National Disaster Housing 
Strategy--it does not say ``plan.'' It does say ``strategy.'' 
But it says ``. . . shall, one, outline the most efficient and 
cost-effective Federal programs that will best meet the short-
term and long-term housing needs of individuals and households 
affected by a major disaster; two, clearly define the role, 
programs, authorities, and responsibilities of each entity in 
providing housing assistance.'' Some of these entities are HUD, 
Agriculture, Veterans Affairs, Health and Human Services, 
Indian Affairs. None of that was done.
    It says, ``Three, it should describe in detail the programs 
that may be offered by entities.'' That has not been done. 
``Outline any funding issues.''
    It is hard not to conclude that someone either instructed 
or suggested that none of those details be filled in because it 
might cost something. I have to just say the law required you 
in very clear English to come up with these strategies, and you 
have turned in a report with blank paper saying, well, we know 
we were supposed to do it, but we did not do it, and now we are 
going to set up a task force to do it, and it is 3 years? Not 
30 days, not 90 days, 3 years. I don't know how to conclude 
this. I am looking for an answer. Was it that no one in the 
Administration or maybe someone else in the Cabinet said you 
could not put anything down on the paper if it cost anything? 
Why isn't anything on this paper?
    Admiral Johnson. One of the comments that you made at the 
very beginning was that the lack of a plan does not indicate 
the absence of effort on the part of Congress, and I think that 
is exactly right. And I would say that the lack of words on 
that paper----
    Senator Landrieu. This is not about--excuse me.
    Admiral Johnson [continuing]. Does not indicate a lack of--
--
    Senator Landrieu. Excuse me, Admiral Johnson----
    Admiral Johnson [continuing]. Effort on the part of FEMA.
    Senator Landrieu. This is not about Congress. I said 
Congress could not have done any more than Congress has done--
let me finish. One of Congress' jobs is to pass laws. We did 
pass a law.
    Admiral Johnson. Right.
    Senator Landrieu. And the President signed it into law. And 
the law is very clear. We required your agency, with some 
specificity, to develop a strategy that could be described as a 
plan, because it is very clear, and the fact is that we do not 
have one. And I am trying to find out why these pages are 
blank, and I don't understand your answer. So try again. Why 
are these pages blank? And what was it actually that prevented 
you, if you could name two or three things that prevented you 
from filling in some of this detail.
    Admiral Johnson. First of all, I think the law is a very 
good law, and the law is very clear. And when FEMA publishes 
the final strategy in the fall, it will, in fact, have each of 
those elements in it. And so what you are reviewing is the 
draft strategy, so the draft does not have those annexes 
complete. We are working those annexes concurrently, and when 
we publish the final strategy in the fall, that will have those 
annexes.
    But, again, I believe that while each of those are very 
well directed, we have no quarrel with any of the seven. They 
were very well chosen. They are very well described in the law. 
And just as building a house, for example, every house needs a 
foundation, I view this as the strategy that we provided is the 
foundation to advance the issues of disaster housing. And on 
top of that foundation, with the course set by that strategy, 
each of these becomes very implement.
    And so when we do complete these and publish the final in 
compliance with the law, admittedly late, you will find that we 
address each of those issues in the final version of the 
strategy.
    Senator Landrieu. OK. Let me just remind everyone for the 
record that the Homeland Security and Governmental Affairs 
Committee's Hurricane Katrina investigation staff called 325 
witnesses. It had over 838,000 pages of documentation and 22 
public hearings, which we thought--and, again, I was not a 
Member of the Committee but was influential in some of this, as 
you know. We thought, I know the Members of Congress thought, 
that was a pretty good foundation to give you all a head start.
    So, again, 325 witnesses, 838,000 pages, and 22 public 
hearings was the foundation. We handed all that information, 
which is the public record, over to FEMA and said, ``We know 
this is a difficult time. Take this information from all 
comments and build a housing strategy that we can provide to 
the Nation.'' We gave you a time frame, and we get blank pages 
late.
    Now, I just cannot tell you how upsetting this is to not 
just me but to the Members of Congress that have worked so hard 
on this. And my question is again--I am going to ask you for 
the record. When will you complete the strategy as required by 
the law?
    Admiral Johnson. Let me respond and preface that by saying 
again that you have about seven blank pages, but you have 81 
pages that are filled, and those 81 pages provide a very 
valuable foundation and, again, a good synopsis of our current 
practices. It reflects all the issues that you have personally 
advocated in terms of differentiating catastrophes, in terms of 
recognizing the broader needs of disaster victims beyond just 
the structure itself, in terms of providing access to those who 
have disabilities and young and old and other issues. Every 
issue that you have raised personally and advocated for you 
will find inside that document as a solid foundation for the 
strategy.
    It is our full intent to--as you know, there is a 60-day 
comment period. That will end September 22. We will receive 
those comments back, adjudicate those comments, go through a 
clearance process, and we will release it in the fall.
    I have learned my lesson from my first appearance and my 
first date not to offer a specific date, but I would say in the 
fall we will present the strategy. As we go through the comment 
period, we will be very open with you and your staff to let you 
know how many comments we receive, and it will give a sense for 
what the degree of difficulty or the challenge may be in 
adjudicating comments. So I can provide a better estimate once 
we have begun to receive comments.
    But, again, I think that you will find immense value in the 
81 pages that precede those 7 pages of the annexes.
    Senator Landrieu. I am going to have to ask you to be a 
little bit more clear than ``the fall.'' Could I ask you what 
month you might have this ready?
    Admiral Johnson. Madam Chairman, with the best of 
intentions, on your chart I indicated I would have the strategy 
on the 1st of April. We all know that did not happen. I 
subsequently indicated I thought we could get it done in June, 
and we all know that we did not come quite close to the end of 
June in that strategy.
    And so, again, I think I am, candidly, very hesitant to 
give you a date. But, again, I think in the fall, early fall, 
we hope to have this strategy in final form.
    Senator Landrieu. OK. Let me ask this question: Since you 
have missed two deadlines and you are reluctant to give me a 
third, I have to ask you this: What three things--there could 
be 15, but just give me three things that are preventing you 
from meeting these deadlines? Just three.
    Admiral Johnson. The number one is a desire for a quality 
product. It did take extra time to do strategy, more so than I 
expected it to take. I personally labored over this strategy, 
and I am very pleased with the product that you have as a draft 
document.
    Senator Landrieu. OK. What the second thing?
    Admiral Johnson. So the number one is to provide a quality 
product.
    The second is to be truly collaborative, as we have 
indicated we intend to be over this 60-day comment period. As 
required by law, the National Advisory Council has this 
strategy. So we want to make sure that we do reach out and seek 
comments and take suggestions and bring those in.
    Senator Landrieu. But who would you consider your major 
collaborative partners? There are many, but who would you 
consider--other agencies are you talking about?
    Admiral Johnson. I think three groups, and it is--the 
National Advisory Council is our avenue to state and locals. 
There is a Subcommittee of the National Advisory Council that 
met just yesterday. I briefed them yesterday on the strategy. 
And they have local elected officials, they have 
representatives from NEMA, IEM. So that is the avenue to those.
    The second, of course, is to the Federal departments and 
agencies, and we are going through that administrative review 
now.
    And the third, I think, is the general public and make sure 
we really do hear the voices of disaster victims.
    Senator Landrieu. OK. That is a fair answer to that. What 
would be the third? You said quality, collaboration. What is 
the third barrier?
    Admiral Johnson. I think the third barrier--i think those 
are really the two. Those are the two things we need. The third 
barrier is really we want to be--it gets back to--first, we 
want to be thoughtful in how we accomplish this. We want to 
make sure that we do reflect good public policy.
    Senator Landrieu. Let me ask this: Since HUD, the 
Department of Housing and Urban Development, is one of the 
collaborative partners, Can you tell us how many meetings you 
personally have had with high-level HUD officials on this?
    Admiral Johnson. I have probably had--between meeting 
personally and telephone calls, I have probably had a dozen 
meetings with HUD.
    Senator Landrieu. How many meetings besides telephone 
calls?
    Admiral Johnson. Probably a dozen meetings with HUD, with 
senior officials of HUD, Jan Opper who is here to testify 
today, either over in his offices, our offices, meeting with 
other officials in HUD. This has been discussed at the Deputy 
Secretary level. This has been briefed both to Secretary 
Chertoff, of course, to Secretary Preston. And so between FEMA 
and HUD, there has been a lot of attention to those sections of 
the strategy.
    Senator Landrieu. And how many meetings do you think you 
have had with the first partner that you outlined, which is the 
local collaborative of State and local emergency managers, 
approximately, that you personally have been involved in?
    Admiral Johnson. That I have personally been involved in? 
Not very many. In the early stages of our----
    Senator Landrieu. Well, who is your designated person? Who 
do you designate as tasked to get this done?
    Admiral Johnson. One of our other witnesses is Dave 
Garratt, the Disaster Assistance Director, who has been 
primarily involved in helping draft this strategy. In the very 
early drafts of this strategy, they reached out to the Red 
Cross, to Federal departments and agencies, to several States.
    Senator Landrieu. So while you have not been engaged 
directly in some of those meetings with your local and State 
partners, David Garratt has been engaged.
    Admiral Johnson. And his staff has been engaged.
    Senator Landrieu. I will ask him how many meetings he has 
been engaged in.
    Why didn't FEMA establish this task force 2 years ago when 
this bill was signed into law?
    Admiral Johnson. Well, I think they--again, I think that 
would have been the cart before the horse. I would certainly 
want a task force to implement a plan, and so I think we would 
have wanted to do the groundwork before we had a task force and 
not to do that early.
    I think it came out--when we began this strategy, our 
thought initially was not about a task force. Our thought came 
in, as we began to learn and absorb more about disaster 
housing, recognized that there had never been a strategy 
before, recognized that there really was no single focus on 
disaster housing. We began to see the value of actually having 
a task force with people who do this as a full-time job. So I 
think that came out of our learning process in developing the 
strategy.
    Senator Landrieu. Let me move to a different line of 
questioning. This Subcommittee remains very confused about 
FEMA's position on travel trailers, and you can understand why, 
because Administrator Paulison appeared before, I think it was, 
the entire Homeland Security and Governmental Affairs Committee 
and stated that, ``FEMA was never going to use trailers 
again,'' when he was questioned not just by myself but other 
Members of the Homeland Security and Governmental Affairs 
Committee. And yet this strategy, basically its main focus 
still remains, after all of what has been said and done about 
the inadequacy of using travel trailers, particularly, it seems 
as though trailers are still a part of our housing strategy for 
catastrophic disaster.
    So could you please clarify? Was Administrator Paulison 
confused at the time? Was it something that had been decided 
and then it has been changed? Could you help clarify that?
    Admiral Johnson. Certainly. First, Mr. Paulison, I think, 
has never been confused. He is a wonderful person, and I think 
he provides strong leadership in FEMA. And I think in the 
strategy and in the plan--which I know that you have seen a 
copy of the 2008 Disaster Housing Plan--it certainly is not 
primarily going to travel trailers. We go out of our way in the 
strategy to emphasize the desire for alternative forms of 
housing. FEMA stood up--after Hurricane Katrina, we stood up 
the Joint Housing Solutions Group to identify alternatives to 
mobile homes and travel trailers. Congress provided $400 
million to find alternatives to mobile homes and travel 
trailers.
    This very day on the street is an application Request for 
Proposal due by August 1, 2008, offering FEMA funds to have any 
entity who has another alternative idea, a creative idea, to 
apply for funding.
    The City of New York has a competition which we are 
participating in that is going to provide $10,000 to winners of 
a contest of some competition to identify alternatives to 
trailers. And so we have a number of initiatives to find 
alternatives to travel trailers.
    I think what you find in our strategy and what you find in 
the housing plan is a recognition that in a catastrophe where 
we do need to find all forms of housing beyond what is 
existing, which is our first line, use all rental and all 
existing resources, go through all of our alternative forms, 
create a form such as you will recall, as you mentioned, cruise 
liners and other forms of housing. We may very well find 
ourselves in a position to needing travel trailers, and so we 
did not want to take that off the table.
    Senator Landrieu. Well, for the record--go ahead--I am 
sorry.
    Admiral Johnson. Let me just add one point. We also have 
contract specifications I know that you are aware of, 0.016 for 
formaldehyde. It is the lowest contract specification that has 
ever been written with regard to formaldehyde. We have awarded 
one contract for park models. We will award a second within the 
next few weeks, and we will award a contract for mobile homes, 
all with that low level of formaldehyde. And so we are looking 
at a number of alternatives so we do not have to go back to 
travel trailers.
    Senator Landrieu. OK. Let the record reflect that no plans 
or funding requests for alternative future disasters was 
requested by FEMA to date, to our knowledge. And if we are 
wrong, we will be corrected by the record.
    The alternative housing money was put in the Appropriations 
Committee by myself and Senator Cochran, actually over the 
objection of FEMA, who never requested the money. We could see 
clearly we needed an alternative. FEMA never requested the 
money. The Administration never requested the money. So we 
appropriated, aggressively appropriated the funding, only then 
to find out that the way that funding was distributed was 
wholly inadequate to Louisiana's situation, which is the topic 
of a whole other hearing which I will not get into now.
    In addition to FEMA not requesting any money for 
alternatives, despite your acknowledgment that trailers have 
many problems, not the least of which is that it was hard in 
the California fires to lug them to the top of mountains--so 
this is not just about Louisiana and Mississippi. We have had 
testimony from California officials that said, ``Senator, does 
FEMA realize these trailers are heavy and sometimes it is hard 
to get them to tops of mountains?'' I said, ``I do not think 
they have weighed them yet, but let me try to convey that to 
them.''
    So despite that, we set up a rental repair authority and 
said, ``trailers are not working real well, here is some money 
for alternative housing, which in my view you all messed up as 
well.'' So then we said, ``well, why don't we just repair some 
of the rental units to give people a place to live, which might 
cost less money than the $50,000 to $70,000--and it is 
arguable, but anywhere from $30,000 to $75,000 to put people in 
a trailer 16 by 8.'' Maybe we could give them $30,000 to repair 
a unit that people could live in.
    Now, we appropriated this money. To my knowledge, you have 
not used it. My question is: Why?
    Admiral Johnson. We have developed the IA pilot project 
which came in PKEMRA, and we are evaluating a complex right now 
in Cedar Rapids, Iowa, and we expect that we will be able to 
use that authority and do a pilot project to see if we cannot 
help refurbish units so that people in Iowa will not have to 
move into a travel trailer but can go into a rental----
    Senator Landrieu. OK. And what do you call this pilot 
again? What is the name of it?
    Admiral Johnson. IA, the Individual Assistance pilot 
project.
    Senator Landrieu. OK, Individual Assistance pilot project. 
You say it is underway in Iowa.
    Admiral Johnson. We are finalizing our project plan, which 
we would be glad to provide to your staff when it is complete 
here in the next few days. And we expect to do this first pilot 
project here in Iowa shortly.
    Senator Landrieu. And the scope of it is for how many 
families, approximately? Would you know?
    Admiral Johnson. Our first project is probably going to be 
about 20 units to get this concept down, and then we will 
consider other units in Iowa.
    Senator Landrieu. OK. So you think you have a pilot for 
maybe 30 families. How many families are you trying to provide 
housing for in just Iowa? I know the tornados were in other 
States, but just approximately give us----
    Admiral Johnson. In Iowa, it may be upwards of a thousand.
    Senator Landrieu. A thousand, OK. So in Iowa we have a 
challenge of trying to find housing for a thousand people. In 
the Gulf Coast, we were trying to find housing for upwards of 
300,000.
    Admiral Johnson. Correct.
    Senator Landrieu. That is a thousand households as opposed 
to 300,000 households, not people. This program expires 
December 30, 2008. Do you intend to ask for its extension?
    Admiral Johnson. We have not considered yet whether we will 
ask for the extension. Our expectation is that we will execute 
this pilot project, evaluate the pilot project, come back and 
find that, in fact, it does work, it is successful, and then 
may ask for continued authority to keep that as a program 
within FEMA. But we would like to go through the process, 
evaluate the pilot, and come back with a thoughtful proposal.
    Senator Landrieu. OK. Administrator Paulison told this 
Subcommittee in April that the Stafford Act needs to be amended 
because it is too restrictive and does not work for 
catastrophic disasters like Hurricanes Katrina and Rita. One of 
the provisions in PKEMRA invited FEMA to describe any 
additional authorities necessary to carry out the strategy, and 
yet according to our initial review, this strategy does not 
request a single change to the law.
    Why does FEMA fail to recommend any changes when even the 
Director of FEMA suggested that the underlying law is not 
adequate to provide you the legal foundation you need to 
respond adequately to victims of a disaster? Why does this 
report fail to even ask for any changes to the law?
    Admiral Johnson. One of the items in the annexes, Annex 6, 
which is consistent with PKEMRA, asked us to identify what 
authorities would be required, so I certainly would expect to 
have that annex complete as well when we publish the strategy 
in the fall.
    Senator Landrieu. So it is your intention to ask for 
specific changes to the law that would allow you all to have a 
better effective housing strategy in the future?
    Admiral Johnson. We certainly expect to comply with your 
request with the law and indicate those additional authorities 
that are required.
    Let me say again, though, that Director Paulison has also 
said----
    Senator Landrieu. Wait, hold on. I just need to get this 
clear for the record. It is not the law, PKEMRA, that requires 
you, I do not believe, to come up with law changes. Secretary 
Paulison himself has testified that the law is inadequate. So 
you are his representative. Are you going to recommend changes 
to the law that might help us to provide a better housing 
strategy for people in the future?
    Admiral Johnson. It is our intent, when we publish the 
final strategy, to have in there what additional statutes are 
required, what additional authorities are required in order to 
carry out the strategy. Again, that is required here--I mention 
that because it is required as part of PKEMRA in the strategy.
    I want to also say that Administrator Paulison has also 
been very vocal to say that the Stafford Act is a very flexible 
piece of legislation, and that, in fact, perhaps an area of 
great focus should be in regulatory reform and policy reform. 
And so we are looking even now in areas of recovery, where 
should we be making changes in policy and in regulation that 
would de-bureaucratize and make more flexible the ability of 
FEMA to provide assistance.
    As a matter of fact, in Iowa--the citizens of Iowa, 
Indiana, Missouri, Wisconsin, Illinois are all benefiting from 
lessons learned in Hurricane Katrina where we have changed a 
number of FEMA policies in recovery that will make it a lot 
easier for them to work with us, a lot easier to gain 
assistance, and accelerate recovery.
    Senator Landrieu. Could you just for the record list two of 
those changes that come to your mind that you are implementing 
now?
    Admiral Johnson. Certainly. The one that I think you 
certainly have an affinity for is in education, where we have 
looked at improved projects and alternate projects which we did 
not have before Hurricane Katrina. And we have found ways to 
work with communities and to give them the flexibility then to 
reorient their infrastructure to match their new demographics 
of where they want to rebuild their city.
    And a second also comes out of education, and that is the 
contents policy, where we were, as you know, very prescriptive 
in what was required--proscriptive in what was required in 
order to replace contents within schools. We changed that 
policy to the great benefit in Louisiana and Mississippi, and 
we expect to apply those same policies in Indiana and Iowa. The 
University of Iowa is probably one of the largest applicants as 
we get project work sheets completed. So my guess is they will 
appreciate the lessons learned in Louisiana with regard to both 
contents and improved and alternate projects.
    Senator Landrieu. OK. I have no further questions, and I 
guess that is a good note to end with. We want to try to remain 
positive, but we will not dismiss reports submitted to us late, 
blank pages, failed deadlines, inadequate requests for funding 
or changes to the law. We consider this to be a very important 
work of the Nation. I believe there is some urgency to get it 
right, to get it ready, to get it available, and to get it 
known. And it is going to take time once this strategy and plan 
is developed. That is why there is some urgency to get your job 
done because many other people have other jobs that cannot get 
started until this job is done.
    And so I thank you, and this record will stay open on your 
testimony for several days. I would like to call the next 
panel. Thank you, Admiral Johnson, and if you could stay for 
this next panel, I would appreciate it. It will just be another 
30 minutes.
    On our next panel, our first witness will be David Garratt, 
the Acting Assistant Administrator of Disaster Assistance at 
FEMA. He has held various positions at FEMA, including Acting 
Director of Preparedness and Executive Operations Officer to 
the Assistant Director for Readiness, Response, and Recovery. 
He has also led the development of the Catastrophic Incident 
Supplement to the National Response Plan.
    We will next hear from Jan Opper, Associate Deputy 
Assistant Secretary for Disaster Policy and Management of the 
U.S. Department of Housing and Urban Development. In my view, 
HUD has a very particular and important role to play as the 
Nation's premier housing entity, and in my view, must work 
closely with FEMA to make sure that individuals are housed 
after a disaster. He has also managed HUD's disaster recovery 
assistance and response to the Northridge earthquake, which was 
more than 10 years ago; the September 11, 2001 terrorist 
attacks; and the 2005 hurricanes.
    I thank both of you for being with us, and we will start 
with you, Mr. Garratt, for a very brief opening statement.

  TESTIMONY OF DAVID GARRATT,\1\ ACTING DIRECTOR OF RECOVERY 
 EFFORTS, FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT 
                      OF HOMELAND SECURITY

    Mr. Garratt. Thank you, Senator. In the interest of time, I 
will forego an opening statement.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Admiral Johnson and Mr. Garrett 
appears in the Appendix on page 27.
---------------------------------------------------------------------------
    Senator Landrieu. OK. Mr. Opper.

   TESTIMONY OF JAN C. OPPER,\2\ ASSOCIATE DEPUTY ASSISTANT 
 SECRETARY FOR DISASTER POLICY AND MANAGEMENT, U.S. DEPARTMENT 
                OF HOUSING AND URBAN DEVELOPMENT

    Mr. Opper. Good morning, Madam Chairman. Thank you for the 
invitation to testify at this Subcommittee hearing on Planning 
for Post-Catastrophic Housing Needs. As you indicated, I am Jan 
Opper, Associate Deputy Assistant Secretary for Policy and 
Management at HUD.
---------------------------------------------------------------------------
    \2\ The prepared statement of Mr. Opper appears in the Appendix on 
page 37.
---------------------------------------------------------------------------
    The U.S. Department of Housing and Urban Development has 
traditionally been a key player in recovery from major 
disasters, particularly with respect to long-term recovery. 
Since 1992, HUD has received 22 supplemental appropriations 
totaling approximately $26 billion for recovery. From Hurricane 
Andrew to the Midwest floods in 1993, 1997, and now 2008, HUD 
was there. HUD was also there following the Oklahoma City 
bombing in 1995 and the September 11, 2001, terrorist attacks 
on New York City, as you indicated, and offers assistance in 
some form after any major disaster--whether natural or manmade.
    Much of the HUD disaster funding has addressed housing-
related recovery needs. That is particularly true with respect 
to two catastrophic disasters for which HUD received funding: 
The Northridge earthquake in 1994 and the Gulf Coast hurricanes 
of 2005. In fact, following the Northridge earthquake, of the 
$505 million appropriated to HUD for the Community Development 
Block Grant program and the HOME Investment Partnerships 
program, more than $230 million of that went to restore or 
replace housing. And of the $16 billion plus in the first two 
supplemental appropriations in CDBG funds for the Gulf Coast, 
more than $11.3 billion is going for housing-related recovery 
activities. Additional amounts were appropriated for the Gulf 
Coast for a disaster voucher program.
    The point of this is to say that most of HUD's program 
authorities and resources, received through supplemental 
appropriations, have focused on recovery rather than response, 
and the focus of recovery has mostly been long term. The long-
term recovery activities have covered a broad span of housing, 
community and economic recovery, and infrastructure activities.
    The Department's programs have been an effective resource 
following catastrophic and other major disasters. However, HUD 
has almost entirely relied on supplemental appropriations for 
funding and only once has that included funding for staffing, 
support costs, and IT support. This has been a strain on the 
Department's resources and has had an effect on catastrophic 
planning as well.
    Through the years, HUD has only occasionally been invited 
to participate in interagency catastrophic planning efforts. To 
my knowledge, HUD was not invited to participate in the 
Hurricane Pam simulation in 2004 that was referred to in your 
invitation letter to this hearing.
    Senator Landrieu. Could you repeat that, please?
    Mr. Opper. I said that, to my knowledge, HUD was not 
invited to participate in the Hurricane Pam simulation in 2004 
that was referred to in your invitation letter.
    HUD does not have its own strategy or plan for a 
catastrophic event per se, nor is it resourced to conduct 
catastrophic planning. Under the National Response Framework 
Catastrophic Incident Annex, and under the National Response 
Plan Catastrophic Incident Annex before it, the Department of 
Homeland Security is assigned primary responsibility for 
housing.
    HUD looks to FEMA for guidance regarding a strategy for a 
catastrophic event, including catastrophic housing. HUD is not 
a first responder. It bears reiterating that HUD does not build 
housing but instead finances the construction, reconstruction, 
and rehabilitation of housing primarily through its State and 
local government partners. HUD does participate in National 
Level Exercises and numerous interagency coordination meetings 
and task forces. It has operating plans and procedures for its 
programs that have been used in disaster recovery.
    Another topic that has been discussed here by the 
Subcommittee is the National Disaster Housing Strategy. HUD was 
asked by FEMA to contribute to its development of the strategy. 
The strategy describes how the Nation currently provides 
housing to those affected by disasters and describes future 
directions for disaster housing efforts to better meet the 
needs of disaster victims and communities. It promotes engaging 
all levels of government, nongovernmental organizations, and 
the private sector in a national housing effort to meet the 
needs of disaster victims and enable rebuilding of communities 
following a disaster. The strategy identifies key principles 
gleaned from past experience, lessons learned that could 
benefit current and future disaster housing efforts.
    FEMA did consult regularly with HUD on the strategy, asking 
us to provide our expertise in interim and permanent housing. 
HUD contributed to the interim housing chapter of the strategy 
and provided much of the initial text for the chapter on 
permanent housing.
    The strategy helps further define HUD's and FEMA's roles 
with respect to disaster housing. Under the strategy, FEMA and 
HUD will partner to provide interim housing assistance, each 
bringing its expertise and experience to bear.
    When Federal permanent housing assistance is needed for 
long-term recovery, the strategy gives HUD the lead 
responsibility to coordinate with its partners, such as the 
U.S. Department of Agriculture, Small Business Administration, 
FEMA, and others, to provide housing and community development 
resources. The strategy also calls for a National Disaster 
Housing Task Force, to be jointly led by FEMA, HUD, and the 
American Red Cross that will help achieve the long-term vision 
and goals of the strategy. Within the strategy, HUD----
    Senator Landrieu. You are over your time. OK? I am going to 
have to ask you to stop, if I could.
    Are you, Mr. Opper, the person that has been appointed 
within HUD to develop, either within HUD or with FEMA, some 
part of this housing plan? Are you the person that has been 
tasked to do that?
    Mr. Opper. I have been the lead person tasked to do that.
    Senator Landrieu. And how long have you been in this 
position?
    Mr. Opper. In the position I am in now, about a year or so, 
but I have been working on disasters since 1992.
    Senator Landrieu. OK. So you have been with HUD since 1992?
    Mr. Opper. No. Since 1975.
    Senator Landrieu. Since 1975. You have been working on 
disasters at HUD since 1992.
    Mr. Opper. Correct.
    Senator Landrieu. And you have been doing this particular 
job for a year.
    Mr. Opper. About a year.
    Senator Landrieu. Who was doing this job before you were 
there, in the last 2 or 3 years?
    Mr. Opper. This job did not exist before I had it.
    Senator Landrieu. OK, so it is a new position----
    Mr. Opper. This particular job.
    Senator Landrieu [continuing]. That has been created. So it 
is your new position that you are in charge of the disaster 
recovery. How many meetings have you actually had with high-
level officials over the last, would you say, year on this 
housing plan?
    Mr. Opper. Quite a few.
    Senator Landrieu. Would you say a half dozen? A dozen?
    Mr. Opper. At least that, probably.
    Senator Landrieu. OK. You said that HUD does not have the 
money, in the earlier part of your statement. Can you report to 
this Subcommittee what you or the Secretary of the Deputy of 
budget has requested in additional funding to help you do your 
job?
    Mr. Opper. Well, it has fallen in between the budget 
cycles, this new job. What I had been doing before that, as you 
may recall, I was at your hearing in February 2006, down in New 
Orleans, and at that time I was managing our CDBG disaster 
assistance. At this point my responsibilities deal more with 
coordinating the overall Department role.
    Senator Landrieu. OK, but I am going to ask you to stay 
focused, if you could, on this request for funding, because you 
testified that HUD in your view did not have the resources 
necessary to follow. If you could provide to this Subcommittee 
any request that HUD has made since Hurricanes Katrina and Rita 
for additional resources or additional funding relative to 
trying to step up, step out, implement any kind of housing 
plan, that is what I would like you to submit to this 
Subcommittee.
    Does HUD consider its responsibility to replace public 
housing that you actually do finance? Or is that FEMA's job, in 
your view?
    Mr. Opper. That is not my area. I can submit an answer for 
the record.
    Senator Landrieu. Since you have been doing disaster 
planning in HUD since 1975, have you ever been involved in any 
discussions about HUD's responsibility to actually replace 
housing that is destroyed--HUD housing destroyed in a 
catastrophic disaster--that you could share with us about what 
HUD thinks is its responsibility?
    Mr. Opper. My role with disasters since 1992 has been, up 
until recently, primarily dealing with the Community 
Development Block Grant program and providing disaster 
assistance through that program. As you know, we have another 
part of HUD, our Office of Public and Indian Housing, that has 
responsibility for the public housing.
    Senator Landrieu. OK. In your job now that you have, do you 
think it is partly your responsibility? Here you are the 
Associate Deputy Assistant Secretary for Disaster Policy and 
Management for the U.S. Department of Housing and Urban 
Development. So this is a new position that has been created.
    Mr. Opper. Yes.
    Senator Landrieu. Do you think it is part of your job to 
focus on public housing residents that your agency built the 
housing and then it becomes destroyed in a disaster? Is it your 
understanding that it is not your job to think of what happens 
if that happens, that what do we do when that happens, is that 
your job?
    Mr. Opper. It is part of my job to coordinate and make sure 
that someone is thinking about that, and our Office of Public 
and Indian Housing is doing that.
    Senator Landrieu. OK. Do you have anything you would like 
to share with us, since you have been in this job for a while, 
that you have talked with the person that is in charge of 
public housing about that?
    Mr. Opper. Nothing to share at this time.
    Senator Landrieu. OK, because I am going to ask you to 
share some details with us at a later date about plans that you 
all might have involving what you do when public housing is 
destroyed, housing that HUD has financed and built, because HUD 
is the primary agency for this in the country. This means 
housing for the senior citizens, housing for disabled 
individuals, housing for low-income individuals, and other 
types of special housing.
    Mr. Garratt, in 2002, FEMA prepared a draft catastrophic 
housing plan that said, ``Business as usual will not be 
sufficient in a catastrophic event.''
    I am looking at the strategy today. Obviously, you know I 
am very troubled by the blank pages and the lack of what I 
would consider details that people in America were expecting.
    In 2002, the plan that you all submitted said, ``FEMA's 
standard forms of assistance (rent and home repair) will not 
necessarily meet housing needs.'' In 2004 and 2005, FEMA spent 
millions on another planning effort, the Hurricane Pam 
exercise. This exercise actually predicted almost the exact 
impact of what actually happened in Hurricane Katrina. It was 
almost predicted to the detail of what would happen.
    During that exercise, FEMA said, ``Response and recovery 
after a catastrophic disaster requires the mobilization of a 
gigantic juggernaut, and for this juggernaut to be successful, 
it has to be planned in detail.''
    If FEMA had come up with a plan in 2002, then we again came 
up with a plan during the exercise of Pam, FEMA concluded that 
detailed planning was necessary, how can this agency justify 
its failure to provide detailed plans in the strategy that is 
now before us 4 years later? And, actually, it is 6 years from 
2002, 4 years from the Pam exercise. Could you please respond?
    Mr. Garratt. Certainly. I am familiar with the 2002 
catastrophic plan to which you referred. I would suggest that, 
in fact, that is really less a plan, less a strategy, than it 
is recognition that we will face a lot of special challenges in 
a catastrophe. And it identifies the fact that we are going to 
face a number of special challenges and that we need to pursue 
new ways to address those.
    We recognize that we needed to do that, and it was as a 
result of that catastrophic plan or strategy or aggregation of 
concerns that really was the impetus for driving us to begin 
the southeast Louisiana catastrophic planning effort. You 
mentioned that Hurricane Pam cost millions. In fact, the 
hurricane planning effort cost millions. I think Hurricane Pam 
only cost $800,000 as part of that.
    But what that resulted in and what Pam was central to help 
us accomplish was to inform our ability in working with the 
State and working with the local jurisdictions to develop this, 
which was a fairly comprehensive plan for southeast Louisiana. 
And this was published in January 2005. That plan, accompanied 
by these appendices, again, identified and captured a lot of 
the lessons learned from Hurricane Pam. So, yes, it was a very 
valuable exercise, and you are exactly right. It did on a 
number of scores, on a number of counts, come very close to 
identifying exactly the sorts of impacts that we faced 
following Hurricane Katrina. What it did not do necessarily was 
provide a lot of assistance or information about how to deal 
with the housing problem. The focus of Hurricane Pam, the focus 
of this effort, was largely around the response effort, so 
dealing with the immediate concerns facing that population.
    So although it is heavy in sheltering, heavy in evacuation, 
heavy on getting supplies, commodities in to provide 
assistance, it, in fact, is lacking in the areas of housing.
    Senator Landrieu. Well, then, let's talk about sheltering 
for a minute. What is your primary remembrance or 
recommendation in terms of immediate sheltering for a 
catastrophic disaster? Is your recommendation to use public 
shelters?
    Mr. Garratt. I have to admit I was not personally involved 
in the development of this plan. I was, at the time this plan 
was being developed, leading a different catastrophic planning 
effort, and that was the development of the Catastrophic 
Incident Supplement to the National Response Plan. So I was not 
personally involved in this, but we saw that there were 
opportunities for convergence here, and what we expected was 
this particular planning effort to identify and inform how the 
Catastrophic Incident Supplement would be used to support an 
event in southeast Louisiana.
    In terms of the sheltering question, it identified at 
least, I think, as a result of Hurricane Pam, if my memory is 
correct--and I can probably look in here and find out. I think 
it identified between 200,000 and 300,000 people were going to 
require either sheltering or housing for families as a result 
of the Hurricane Pam scenario.
    Senator Landrieu. Did that report--and I know you did not 
have anything to do with it, but do you remember in that report 
if it had recommended using travel trailers as an appropriate 
response to a hurricane-prone area that could not be easily 
moved?
    Mr. Garratt. I do not recall whether it did. However, 
travel trailers have been, at least--and they were at the 
time--a standard part and, in fact, an important part of our 
response strategy. And they have been--not only travel trailers 
but manufactured housing. Mobile homes, park models have for a 
very long time been an integral part of our temporary housing 
strategy, and an important part of that.
    Senator Landrieu. All right. What has FEMA done to help 
State and local governments organize their resources and plan 
for post-disaster housing, just if you could list one, two, or 
three things that FEMA has done in that regard? And have you 
all requested the funding for that training?
    Mr. Garratt. I am sorry, Senator. I need you to repeat that 
question.
    Senator Landrieu. What has FEMA done to help State and 
local governments organize their resources and plan for post-
disaster housing assistance?
    Mr. Garratt. Most of the planning that we do with the 
States is done either through our regions, dealing with the 
unique and special requirements of individual States. They work 
with the States to identify what their requirements are, what 
their needs are, and then they will augment and provide 
assistance to the States in the development of their planning 
requirements. And they do that through such forums as Regional 
Interagency Steering Committees, which each region sponsors, 
which each region has meetings with their State representatives 
on a regular basis, as well as Federal representatives.
    We also provide assistance through the Emergency Management 
Performance Grants program, and that program identified targets 
that we want States to meet as part of acceptance of those 
grants.
    We have also developed in our Preparedness Directorate a 
target capabilities listing and other preparedness 
documentation that provides guidance to the States on what it 
is that they should be trying to achieve in support of 
improving their individual and respective preparedness.
    What I can do is reach back, and we can provide a more 
comprehensive listing of what is being done in the preparedness 
realm to work with the individual States to answer the question 
that you asked. But I do not have specifics that I can provide 
you, just these generalities.
    Senator Landrieu. All right. Let me ask you this, because I 
am concerned about statements that I continue to see in the 
reports that come to us that say this exactly or something like 
it: ``All incidents should be managed at the lowest 
jurisdiction level possible, and this holds true for disaster 
housing assistance as well.'' It is this reliance on everything 
local, individuals should be responsible.
    Do you think that this makes sense in catastrophic 
disasters, as opposed to regular, normal, major disasters?
    Mr. Garratt. Senator, I would say that by its very nature, 
a catastrophe means that disaster exceeds the capabilities of 
State and local governments. So in a catastrophe, I do not 
think anyone has the expectation that local governments will be 
able to handle that and that Federal assistance is not only 
going to be required, it is going to be required quickly and in 
a very aggressive way to help them deal with those particular--
--
    Senator Landrieu. So I would take that as you are actually 
disagreeing with the fact that it says, ``All incidents should 
be managed . . . `' It would be, I don't think, leading you to 
say that you say certain incidents should be managed at the 
lowest jurisdiction, but there might be some of a catastrophic 
nature----
    Mr. Garratt. No, I think, Senator, what I was trying to say 
was I do believe that from a strict management perspective that 
the responsibility for management should be at the lowest 
level. What I am saying is that the lowest level is not going 
to be able to handle or even come close to handling the 
requirements that they are going to face in a catastrophe. They 
should expect and they should receive a lot of assistance from 
the Federal Government and from States and from mutual aid 
partners. And we need to be prepared to provide and project 
that assistance very quickly. But we should not be running that 
response operation unless they cannot do it. If they have the 
capability of managing it, we should be folding our resources 
in to support their management requirements.
    Senator Landrieu. But you just said that, in your view, 
they cannot manage a catastrophe, and I actually agree with 
you.
    Mr. Garratt. Management in the term of assemble and respond 
to that disaster using exclusively their own resources is what 
I meant when I said that. In terms of providing the command and 
control under the Incident Command System, which is the basis--
the National Incident Management System, the basis for how we 
deliver and augment response operations throughout the Nation, 
we would fold our resources in support of the incident 
commander at the very lowest level.
    So I think we are saying the same thing in terms of the 
overall management and--I believe that we are saying the same 
thing in terms of the resources involved. In terms of command 
and control, I think that has to rest and continue to be 
applied in an Incident Command System structure.
    Senator Landrieu. Well, I am not sure we are saying the 
same thing, and in large measure, this is the heart of a debate 
that is going on right now. Is the Federal Government, even 
after all the evidence has been laid down, is the Federal 
Government trying to make a distinction between regular 
disasters and catastrophic disasters? You claim there is a 
difference. I actually agree with you. But I have yet to see 
any document that seeks to describe a trigger or seeks to 
suggest that there be one strategy for lower-level disasters 
and a different strategy for catastrophic. And so while I 
continue to hear people say it, I do not see it.
    Do you know if this strategy makes any distinction? Because 
we cannot find any distinction recommended in your strategy 
between catastrophic and lower-level disasters.
    Mr. Garratt. You are talking about the housing strategy 
now?
    Senator Landrieu. Yes.
    Mr. Garratt. I would suggest that--to back up a little bit, 
certainly FEMA recognizes that a catastrophic disaster does 
have and has required a specialized response, and we need to be 
able to respond to that in a different way. That was the 
genesis of that understanding for the development of the 
Catastrophic Incident Supplement to the National Response Plan, 
now the National Response Framework. That Catastrophic Incident 
Supplement has a special response protocol that is employed 
whenever the Secretary of Homeland Security designates a 
disaster as a catastrophe. That is implemented immediately, and 
it is implemented aggressively.
    However, it is designed to cover the first 72 to 96 hours 
of that disaster because the prevailing belief has been ever 
since the Federal Response Plan and its successors--the 
National Response Plan, the National Response Framework--were 
developed was that those documents are scalable and that what 
we do during the recovery phase is something that needs to be 
determined by the characteristics of the situation.
    So if we have a large housing mission, then we need to 
expand the capability to provide housing to that group. But 
what we cannot necessarily do is invent or manufacture a 
housing capability for catastrophes that we would not already 
have available for any size disaster.
    Senator Landrieu. You are going to have to repeat that 
because I do not understand it. Let me tell you what I think I 
heard you say: ``We have a plan that is a housing plan for 
trailers, and if it is a big disaster, we will just get you 
more of them.'' That is what I heard you say. So if you did not 
say that, please say it again.
    Mr. Garratt. I would say it differently than you said it, 
Senator. What I would say is that if we have a large housing 
mission, we are going to use all of the resources available to 
us to meet that requirement, but the size of the housing 
mission does not necessarily mean that at this particular size 
we are going to invoke and use a housing capacity that we would 
not use before that.
    All of these forms of housing assistance are available to 
us now--alternative forms of housing, temporary forms of 
housing, forms of rental assistance, permanent reconstruction. 
All of those are forms of assistance that are authorized to us. 
When we choose to use them is fully articulated in the National 
Disaster Housing Plan--or, excuse me, the 2008 Disaster Housing 
Plan. We do that on a staged basis. But we can also, as the 
plan indicates, implement them all simultaneously if the size 
of the disaster so requires, and that I think is the 
fundamental point I am trying to make, which is we have 
identified everything that we can do. What we do and when we do 
that is dependent on the size of the disaster and the 
characteristics of that disaster.
    Senator Landrieu. Is there any question in your mind that 
Hurricanes Katrina and Rita was not a major catastrophe?
    Mr. Garratt. No question whatsoever.
    Senator Landrieu. So you are testifying before this 
Subcommittee that you have all the authority you need right now 
in terms of these options--trailers, rental housing, etc.--to 
take care of this housing catastrophe.
    Mr. Garratt. What I am saying is that for those forms of 
housing that are available to us, we can go out and we are 
going out--and we are going to be awarding a contract for a 
number of alternative forms of housing here in August. We can 
secure right now using our authorities whatever we need to 
provide housing assistance, just as we did following Hurricane 
Katrina. There is no form of housing that is out there that we 
did not employ because we did not have the authority to employ 
that.
    Senator Landrieu. I could not disagree with you more, and I 
am actually puzzled, very puzzled to hear you say that you have 
all the options you need and you use them all?
    Mr. Garratt. No, ma'am.
    Senator Landrieu. Do you realize we have had thousands of 
people sleeping under interstates for the last 3 years? And you 
did not step forward to provide housing vouchers. The Congress 
had to basically thrust them to you to make you take them.
    Mr. Garratt. Ma'am, everyone who was eligible for 
assistance from the Federal Government under our authorities 
received that assistance or had the opportunity to receive that 
assistance.
    Senator Landrieu. I could not disagree with you more, and 
the record will reflect that.
    [Pause.]
    Senator Landrieu. This has been a very interesting hearing, 
I want you to know, Mr. Garratt, to me. I am getting such 
conflicting testimony between you, who claim that you have all 
the authority you need to act, although the budget does not 
request any additional funding; a rental housing program that 
has yet to be implemented; it is 3 years after the biggest 
catastrophe, which nobody on these panels disagrees was a 
catastrophe, but there is a wide disagreement as to what 
authority you have, what budget you have, what money you have, 
and a document that has been submitted with seven blank pages.
    So I am very sorry that the time has run out on this 
hearing today. I appreciate your testimony, but we will 
continue to have several hearings that we can get to the bottom 
of what happened, why it happened, and what can be done to 
prevent it in the future.
    Meeting adjourned.
    [Whereupon, at 1:32 p.m., the Subcommittee was adjourned.]























                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
